Supreme Court, U.S.
FILED

WAIVER

SEP 1 8 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 20-236

Jerry Wells

v.

Robbin Neslon, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[I] Please enter my appearance as Counsel of Record for all respondents.

D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Heather Anne Greene Sharp

D I am a member of the Bar of the Supreme Court of the United States.
Li I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

tg La

Date(Type or print) Name

Casey A. Hixson -- Membership to Bar pending
Mr.

Firm

❑ Mrs.

❑ Miss

Hixson Law Office

Address

511 East Tenth Avenue

City & State
Phone

❑ Ms.

Bowling Green, KY

270-780-9655

Zip
Email

42101

casey@caseyhixson.corn

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jerry Wells

RECEIVED
SEP 2 9 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

